TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                            A Statistical Portrayal of the
                           Taxpayer Advocate Service for
                          Fiscal Years 2005 Through 2009



                                         August 16, 2010

                              Reference Number: 2010-10-081




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


A STATISTICAL PORTRAYAL OF THE                        TAS to accomplish part of its mission related to
TAXPAYER ADVOCATE SERVICE FOR                         timely resolving taxpayer problems.
FISCAL YEARS 2005 THROUGH 2009                        Rising caseloads have also affected case
                                                      processing time. In Fiscal Year 2009, cases
                                                      were open an average of 80 calendar days, an
Highlights                                            increase of 14 calendar days (22 percent) since
                                                      Fiscal Year 2005. Despite these challenges, the
Final Report issued on August 16, 2010                TAS reported an overall quality rating of
                                                      88 percent and a customer satisfaction rating of
Highlights of Reference Number: 2010-10-081
                                                      84 percent during Fiscal Year 2009. However,
to the National Taxpayer Advocate.
                                                      TIGTA believes many of the issues identified in
IMPACT ON TAXPAYERS                                   our review will continue to present challenges for
                                                      the TAS and affect its ability to timely resolve
The Taxpayer Advocate Service (TAS) plays an          taxpayer problems in the future.
important role in tax administration by helping
taxpayers who have tried, unsuccessfully, to          WHAT TIGTA RECOMMENDED
resolve their tax problems using normal Internal
                                                      Due to the nature of this review, TIGTA made no
Revenue Service (IRS) channels. TIGTA found
                                                      recommendations. However, key TAS
that fluctuating staffing levels, current
                                                      management officials reviewed the report prior
authorities, and increased case receipts have
                                                      to issuance and, overall, agreed with the facts
contributed to longer case processing time. As
                                                      and conclusions presented regarding the major
a result, although the TAS may take interim
                                                      trends in the TAS over the past five years. TAS
actions to assist taxpayers, they have had to
                                                      management provided additional perspective
wait longer for their tax problems to be fully
                                                      related to the TAS’ change in authority and its
resolved. Despite the increased workload and
                                                      effect on the issuance of Operations Assistance
decreased staffing, the TAS has been
                                                      Requests to the operating divisions. In addition,
successful in maintaining high levels of quality
                                                      TAS management also provided input related to
and customer satisfaction.
                                                      the increase in case processing time.
WHY TIGTA DID THE AUDIT
This review was initiated to gain an overall
perspective of the TAS program in light of its
mission of solving taxpayer problems. Our
overall objective was to provide a statistical
portrayal with trend analyses of the TAS for
Fiscal Years 2005 through 2009. This audit
addresses the IRS major management
challenge of Providing Quality Taxpayer Service
Operations.
WHAT TIGTA FOUND
Many internal and external factors have affected
the TAS’ ability to timely assist taxpayers.
Specifically, the economy, the IRS’ increased
emphasis on enforcement actions, and
legislative changes have led to more taxpayers
asking for the TAS’ help. In addition, the TAS’
internal policy of accepting all cases referred to
it by other IRS functions may have contributed to
the 38 percent increase in case receipts since
Fiscal Year 2005. Collectively, TIGTA believes
these factors have made it challenging for the
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            August 16, 2010


 MEMORANDUM FOR NATIONAL TAXPAYER ADVOCATE

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – A Statistical Portrayal of the Taxpayer Advocate
                             Service for Fiscal Years 2005 Through 2009 (Audit # 201010017)

 This report presents the results of our review of statistical information that reflects activities of
 the Taxpayer Advocate Service (TAS). The overall objective of this review was to provide a
 statistical portrayal with trend analyses of the TAS for Fiscal Years 2005 through 2009. This
 audit is included in our Fiscal Year 2010 Annual Audit Plan and addresses the major
 management challenge of Providing Quality Taxpayer Service Operations.
 Due to the nature of this review, we made no recommendations. However, key TAS
 management officials reviewed the report prior to issuance and, overall, agreed with the facts and
 conclusions presented regarding the major trends in the TAS over the past 5 years. TAS
 management provided additional perspective related to the TAS’ change in authority and its
 effect on the issuance of Operations Assistance Requests to the operating divisions. In addition,
 TAS management also provided input related to the increase in case processing time.
 Management’s complete response to the draft report is included as Appendix XI.
 Please contact me at (202) 622-6510 if you have questions or Nancy Nakamura, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations), at
 (202) 622-8500.
                            A Statistical Portrayal of the Taxpayer Advocate Service
                                       for Fiscal Years 2005 Through 2009




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Fluctuating Staffing Levels, Authorities, and Increased
          Receipts Have Contributed to Longer Processing Time in the
          Case Advocacy Program...............................................................................Page 4
          The Systemic Advocacy Program Received Fewer New
          Submissions and Opened Fewer Projects .....................................................Page 14
          The Taxpayer Advocate Service Continues to Report High Levels of
          Casework Quality and Customer Satisfaction ......................................... Page 16

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 21
          Appendix II – Major Contributors to This Report ........................................Page 22
          Appendix III – Report Distribution List .......................................................Page 23
          Appendix IV – Historical Perspective of the Taxpayer
          Advocate Service ..........................................................................................Page 24
          Appendix V – Criteria – Case Advocacy Program.......................................Page 25
          Appendix VI – Expenditures and Staffing for Fiscal Years 2005
          Through 2009................................................................................................Page 26
          Appendix VII – Sources of Cases Received During Fiscal Year 2009 ........Page 27
          Appendix VIII – Case Advocacy Program Full-Time Equivalents and
          Case Receipts for Fiscal Years 2005 Through 2009.....................................Page 28
          Appendix IX – Casework Quality Index Standards......................................Page 29
          Appendix X – Customer Satisfaction Survey Results ..................................Page 33
          Appendix XI – Management’s Response to the Draft Report ......................Page 34
         A Statistical Portrayal of the Taxpayer Advocate Service
                    for Fiscal Years 2005 Through 2009




                     Abbreviations

FTE            Full-Time Equivalent
FY             Fiscal Year
IRS            Internal Revenue Service
OAR            Operations Assistance Request
RRA 98         Restructuring and Reform Act of 1998
TAS            Taxpayer Advocate Service
                        A Statistical Portrayal of the Taxpayer Advocate Service
                                   for Fiscal Years 2005 Through 2009




                                             Background

In response to concerns about the quality of service provided to taxpayers, Congress passed the
Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98), 1 which led to
the reorganization of the IRS. The RRA 98 created the position of the National Taxpayer
Advocate and established the Taxpayer Advocate Service (TAS) as an independent organization
within the IRS. 2
In March 2000, the TAS stood up as a separate operating division within the IRS, headed by the
National Taxpayer Advocate. The TAS has two principal statutory missions, which are
summarized in the TAS mission statement: “As an independent organization within the IRS, we
help taxpayers resolve problems with the IRS and recommend changes that will prevent the
problems.” 3 The TAS plays an important role in tax administration by helping taxpayers who
have tried, unsuccessfully, to resolve their tax problems using normal IRS channels. In addition,
the TAS helps taxpayers whose tax problems are causing financial difficulty or significant cost.
The TAS established two internal functions to address its principal statutory missions.
    •    Case Advocacy – addresses problems faced by specific individual and business
         taxpayers. These problems range from simple IRS processing errors or delays to
         complex examinations and appeals. The TAS has established nine criteria for accepting
         cases into the Case Advocacy Program that fall under four broad categories of issues. 4
         Most of the cases the TAS receives are referred to it by the IRS functions, primarily
         through the toll-free telephone lines. The TAS also receives direct contacts from
         taxpayers, their representatives, and members of Congress. Appendix VII shows the
         sources of TAS cases.
    •    Systemic Advocacy – identifies areas in which groups of taxpayers are experiencing
         problems with the IRS. The goal is to identify, analyze, and provide resolution of
         broad-based taxpayer problems. These problem areas can be identified by the TAS, other
         IRS field offices, and external stakeholders. To the extent possible, the TAS is required
         to propose administrative or legislative changes to resolve or mitigate those problems.
         Systemic Advocacy Program projects are categorized under two criteria: Immediate
         Interventions and Advocacy Projects.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C.,31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix IV for a historical perspective of the TAS.
3
  Internal Revenue Code Section 7803 (2009).
4
  See Appendix V for a definition of the TAS’ criteria for accepting cases into the program.
                                                                                                              Page 1
                       A Statistical Portrayal of the Taxpayer Advocate Service
                                  for Fiscal Years 2005 Through 2009



By statute, the TAS is required to maintain at least one Local Taxpayer Advocate office in each
State. 5 The TAS currently has 76 offices throughout the Nation and Puerto Rico, as well as the
Headquarters office in Washington, D.C. 6 Although casework is performed at multiple offices,
most communication with taxpayers are made by correspondence or telephone.
The structure of the TAS organization has changed since its inception. In addition to performing
its statutory missions, the TAS assumed responsibility for the administration of the Taxpayer
Advocacy Panel (a Federal advisory committee made up of members of the general public from
each State) in Calendar Year 2002 and the Low Income Taxpayer Clinic (a grant program) in
May 2003.
This review was performed at the TAS National Headquarters in Washington, D.C., during the
period December 2009 through April 2010. We did not assess internal controls because doing so
was not applicable within the context of our audit objective. Otherwise, we conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
relied on published data and other information provided by the TAS and audit reports issued by
the Treasury Inspector General for Tax Administration and the Government Accountability
Office. The information obtained from published data and provided directly by the TAS has not
been independently verified or validated by the Treasury Inspector General for Tax
Administration. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




5
 Internal Revenue Code Section 7803(c)(D)(i)(1) (2009).
6
 Offices are located in the IRS campuses and field offices. Campuses are the data processing arm of the IRS. The
campuses process paper and electronic submissions, correct errors, and forward data to the Computing Centers for
analysis and posting to taxpayer accounts.
                                                                                                         Page 2
                       A Statistical Portrayal of the Taxpayer Advocate Service
                                  for Fiscal Years 2005 Through 2009




                                     Results of Review

We identified several trends in the TAS’ caseload, authority, and resources during Fiscal Years
(FY) 2005 through 2009 that point to significant changes within the TAS organization. Many
internal and external factors have affected the TAS’ ability to timely assist taxpayers. The
economy, the IRS’ increased emphasis on enforcement actions, and legislative changes such as
the electronic stimulus payment 7 have led to more taxpayers asking for TAS help. In addition,
the TAS’ internal policy of accepting all cases referred to it by other IRS functions may have
contributed to the 38 percent increase in case receipts since FY 2005. Collectively, we believe
these factors have made it challenging for the TAS to accomplish part of its mission related to
timely resolving taxpayer problems.
Rising caseloads have also affected case processing time. 8 In FY 2009, cases were open an
average of 80 calendar days, an increase of 14 calendar days (22 percent) since FY 2005. This
means taxpayers have had to wait longer for all their issues to be fully resolved.
The TAS’ staffing levels have also fluctuated since FY 2005, which may have affected its ability
to keep pace with rising inventory and contributed to longer case processing time. The TAS
organization was at its lowest staffing in FY 2007. Since then, the TAS has been able to hire
more personnel and plans to fill all positions lost to attrition during FY 2010.
In addition, while the volume of cases has increased, TAS employees do not have the ability to
directly resolve certain taxpayer problems due to a change in their level of authority. Most cases
must be referred to the IRS operating divisions for resolution, which typically adds an additional
45 calendar days to the case processing time. Finally, although the TAS has experienced
increased workload and decreased staffing, it has been successful in maintaining high levels of
quality and customer satisfaction. However, we believe many of the issues we identified will
continue to present challenges for the TAS and affect its ability to timely resolve taxpayer
problems in the future.




7
  The Economic Stimulus Act of 2008 (Pub.L. 110-185, 122 Stat. 613, enacted February 13, 2008) was an Act of
Congress providing for several kinds of economic stimuli intended to boost the United States economy in 2008 and
to avert a recession or ameliorate economic conditions.
8
  Case processing time is also known as “cycle time” and is the average number of days a TAS case remained open.
                                                                                                         Page 3
                       A Statistical Portrayal of the Taxpayer Advocate Service
                                  for Fiscal Years 2005 Through 2009




Fluctuating Staffing Levels, Authorities, and Increased Receipts Have
Contributed to Longer Processing Time in the Case Advocacy
Program
The TAS is an important function within the IRS because it provides an avenue of assistance for
taxpayers experiencing financial difficulties, as well as those taxpayers that have been
unsuccessful in resolving their tax problems directly with the IRS. Because many of these
taxpayers have already experienced delays and possibly hardships caused by the IRS, the TAS
needs efficient processes to ensure taxpayers receive timely resolution of their problems.
The TAS’ ability to keep pace with rising caseloads was affected by fluctuating staffing levels
and attrition. From FY 2005 through FY 2007, TAS staffing levels steadily decreased and
reached its lowest level in FY 2007 with 1,870 Full-Time Equivalents (FTE). 9 Beginning in
FY 2006, TAS management began a hiring initiative to bring staffing levels back to FY 2005
levels. In FY 2009, the TAS organization grew to 1,998 FTEs, an increase of 6.8 percent from
FY 2007. Figure 1 shows the TAS’ fluctuating staffing levels.
                             Figure 1: FTEs in the TAS Organization

           2,200
           2,100
    FTEs




           2,000                                                                                  Total FTEs
           1,900
           1,800
           1,700
                   2001 2002 2003 2004 2005 2006 2007 2008 2009
                                                 FY
    Source: Data provided by TAS management, December 2009.

Since their FY 2010 budget was increased from FY 2009, TAS management has been able to
hire more employees to fill vacant positions, especially in the Case Advocacy Program. 10 To
address staffing shortfalls, management plans to continue hiring to fill all positions (more than
140) that were vacant due to attrition. In addition, management informed us that they intend to


9
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FY 2009, 1 FTE was equal to 2,088 staff hours. For FY 2010, 1 FTE is equal to
2,088 staff hours.
10
   The TAS FY 2010 budget is $215,954,000, which includes $10 million in grant money to be awarded to
Low Income Tax Clinics.
                                                                                                         Page 4
                       A Statistical Portrayal of the Taxpayer Advocate Service
                                  for Fiscal Years 2005 Through 2009



create and fill at least 25 new case advocate positions in FY 2010. 11 Figure 2 provides a
breakdown of staffing for all TAS functions since FY 2005.
                               Figure 2: FTEs for FY 2005–FY 2009

       Program Area                                2005        2006         2007        2008         2009
       Core Functions
         Case Advocacy                            1,829        1,766        1,757       1,785        1,851
         Systemic Advocacy                            32          32           25          29           29
       Other Functions
         Low Income Taxpayer Clinic                   10          11           13          12           14
         Taxpayer Advocacy Panel                      21          21           20          18           24
                 12
         Other                                        71          64           56          74           79
       Total FTEs 13                              1,963        1,894        1,870       1,918        1,998
      Source: Data provided by TAS management, December 2009.

Replacing positions lost to attrition will be necessary to manage higher volumes of casework, but
it can take years for new employees to become proficient case advocates. 14 We are concerned
that if funding is not provided to allow the TAS to continue to add case advocate positions, it
may ultimately have to identify other methods to manage case inventories.

The Systemic Advocacy Program has also experienced challenges with staffing
The Systemic Advocacy Program is an important function within the TAS because the issues
addressed can affect large groups of taxpayers. During a FY 2003 review of the Systemic
Advocacy Program, 15 we expressed concerns that employees were not always able to fully
devote the time necessary to address advocacy projects due to conflicting priorities. 16 We
observed that personnel were shifted away from the program for significant periods of time in
order to work on the Annual Report to Congress. However, we could not determine whether the
staffing level was appropriate because no information was available on the staff days expended


11
   See Appendix VI for more information on TAS expenditures and FTEs.
12
   Other includes TAS personnel performing headquarters management activities. These activities include strategic
planning, communications and liaison, finance, equal opportunity and diversity, business systems planning, and
employee development.
13
   The totals do not add up due to rounding.
14
   Case advocates work directly with taxpayers and their representatives to resolve TAS cases.
15
   The National Taxpayer Advocate Could Enhance the Management of Systemic Advocacy Resources (Reference
Number 2003-10-187, dated September 30, 2003).
16
   The TAS creates advocacy projects from advocacy issues that have been reviewed, ranked under established
criteria, and accepted as projects for assignment and further development.
                                                                                                          Page 5
                        A Statistical Portrayal of the Taxpayer Advocate Service
                                   for Fiscal Years 2005 Through 2009



in working Systemic Advocacy Program projects or developing issues for the Annual Report to
Congress.
We did not evaluate the staffing structure of the Systemic Advocacy Program during this review;
however, we intend to conduct another review of this area in a future audit.

The TAS’ current authority has led to increased reliance on other IRS operating
divisions
In FY 2001, the IRS Commissioner delegated significant authority to the TAS to enable TAS
employees to take various actions on taxpayer accounts, such as processing certain types of
claims and returns. At that time, it was thought that giving the TAS these authorities would
facilitate faster service for taxpayers by decreasing the need to request assistance from other
functions within the IRS. However, in FY 2007, the National Taxpayer Advocate agreed to
relinquish some of the authority that had previously been granted to the TAS. This change limits
the actions case advocates can take to directly resolve taxpayer account problems. TAS
management believes that its employees should not make any decision that may be later appealed
by a taxpayer, such as accepting/denying claims for refunds or upholding/abating penalties. TAS
management believes that taking these types of actions interfere with its Congressional mandate
to advocate for taxpayers. In FY 2007, TAS obtained some new authorities, such as the ability to
make certain account adjustments and issue manual refunds in certain situations.
With their current authorities, TAS employees are limited to taking actions that are routine and
non-substantive, such as inputting a taxpayer’s change of address. Specifically, the TAS can no
longer directly resolve many common taxpayer problems such as processing claims for refund,
abating penalties, or designating taxpayer accounts as “Currently not Collectible,” regardless of
the amounts involved.
Although the TAS receives most of its cases from the IRS operating divisions, it generally must
send most cases back to the IRS for resolution. 17 This means that the TAS must collaborate with
the IRS operating divisions to address most taxpayer cases through the use of Operations
Assistance Requests (OAR). 18 As a result of the current authority and increasing case receipts,
the TAS has had to issue increasingly more OARs to the IRS operating divisions to address
taxpayer issues. In FY 2008, the TAS issued approximately 15 percent more OARs than in the
prior fiscal year. Therefore, taxpayers may have to wait longer for resolution because OARs
generally extend overall case processing time.



17
   In FY 2009, 73.2 percent of TAS case receipts were referrals from the IRS, primarily the toll-free telephone lines.
See Appendix VII for the sources of cases received by the TAS.
18
   The OAR process is a collaborative effort between the TAS and the applicable IRS operating division. It involves
the creation and routing of the OAR by the TAS, the assignment of the OAR, and completion of the requested action
by the operating division.
                                                                                                              Page 6
                         A Statistical Portrayal of the Taxpayer Advocate Service
                                    for Fiscal Years 2005 Through 2009



At the request of the National Taxpayer Advocate, we performed an audit during FY 2007 to
determine whether the OAR process was efficient. 19 We found that taxpayers may have been
burdened because the OAR process was paper-intensive and added unnecessary time to case
processing. These delays were especially critical if the taxpayer was experiencing a financial
hardship and needed expedited assistance.
Another significant problem we identified during our previous review was the high number of
OARs rejected by the IRS functions. 20 This further delays resolution of the taxpayer’s problem
since the OAR must be corrected and resubmitted to the applicable IRS function for processing.
One of the most common reasons the IRS rejected the OARs issued by the TAS was because
they were sent to an incorrect operating division or function.
In our FY 2007 report, we recommended that TAS management evaluate a sample of OARs to
determine the reasons why they were rejected. In this review, we noted that the TAS has made
continued progress in reducing the number of OARs rejected by the IRS functions. Figure 3
shows the OARs issued and rejected:
                   Figure 3: OARs Issued by the TAS and Rejected by the IRS

                    Fiscal Year                       2005        2006        2007         2008        2009
     Percentage of Cases Closed With
                                                    Unknown        49.4%       48.5%        52.8%       54.7%
     at Least One OAR

     OARS Issued by the TAS                           162,096    190,429     196,861      226,446     243,309

     OARS Rejected by the IRS 21                       21,235      25,898      25,020      20,764      17,320

     Reject Rate                                       13.1%       13.6%       12.7%         9.2%        7.1%
                                        th
     Source: TAS FY 2008 and FY 2009 4 Quarter Business Performance Reviews; TAS 2005 Annual Report to
     Congress; Discussion of Taxpayer Advocate Service Process Reengineering Efforts, dated March 2008; and
     Taxpayer Advocate Service: FY 2009 Review and Fiscal Year 2010 Target Setting Process for IRS Oversight
     Board Meeting: November 18, 2009.

Although the TAS has taken steps to reduce the number of OARs rejected by the IRS, we
continue to be concerned that the use of OARs significantly increases TAS processing time on
cases. Since FY 2005, the average cycle time on cases with at least 1 OAR was 45 calendar days



19
   Inefficiencies in Processing Operations Assistance Requests Caused Taxpayers Unnecessary Delays (Reference
Number 2007-10-068, dated May 18, 2007).
20
   When IRS functions reject OARs, they return them to the TAS without taking action or addressing the taxpayer’s
problem.
21
   The number of OARs rejected by IRS functions in FY 2005 and FY 2006 are approximated based on the number
of OARs issued and the reject rate because actual numbers were not published by the TAS.
                                                                                                          Page 7
                       A Statistical Portrayal of the Taxpayer Advocate Service
                                  for Fiscal Years 2005 Through 2009



longer than the average cycle time for cases without any OARs. During FY 2009, the TAS
issued 50 percent more OARs than during FY 2005.
The TAS sent an average of two OARs to the IRS for each taxpayer case that required an OAR. 22
For example, the TAS may send one OAR to an Examination function group to reconsider a
taxpayer’s audit assessment and a separate OAR to a Collection function because the taxpayer
requested an installment agreement. TAS management informed us that they are also
considering expanding the use of “piggyback OARs” in which one OAR is used for an issue that
is worked by multiple functions/business units.
In our FY 2007 report, we recommended that the TAS automate the OAR process to enable IRS
personnel to input data and return OARs electronically. While the TAS agreed with our
recommendation, the process has not yet been fully automated. However, TAS management
indicated they have taken other actions to improve the OAR process, including:
     •   Creating web links to IRS resources that aid the TAS in routing the OARs to the correct
         IRS functional office.
     •   Using dedicated email boxes and secure email to transmit the OARs in order to avoid
         delays associated with mailing paper files.
     •   Adding a feedback button to the TAS intranet web site that allows IRS employees to
         elevate problems with the OAR process.
After we completed our audit of the OAR process, the TAS contracted with an independent
consulting firm to explore ways to improve case processing. In a September 2008 report, the
consulting firm stated that the OAR process was inefficient. They noted that misrouted OARs
cause rework for the TAS and the IRS and cause delays for taxpayers. The consulting firm also
agreed with our recommendation to automate the OAR process. 23 However, the final report with
the consulting firm’s results was not yet completed by the end of our fieldwork on this review.
The OARs have become an integral part of case processing. As a result, the TAS is dependent
on the other IRS functions to ensure that actions taken on taxpayers’ accounts are timely and
accurate. Consequently, it is important that the OAR process be efficient so that taxpayers are
not subject to lengthy or unnecessary delays in resolving their tax problems.

Receipts in the Case Advocacy Program have continued to rise since FY 2005
Another significant factor affecting the TAS organization is the number of taxpayers asking for
assistance. Since FY 2005, case receipts have increased significantly, increasing almost

22
   In FY 2009, the average processing time for each OAR was 18 calendar days and each case required an average of
1.9 OARs.
23
   Inefficiencies in Processing Operations Assistance Requests Caused Taxpayers Unnecessary Delays (Reference
Number 2007-10-068, dated May 18, 2007).
                                                                                                         Page 8
                                  A Statistical Portrayal of the Taxpayer Advocate Service
                                             for Fiscal Years 2005 Through 2009



38 percent by FY 2009. 24 As shown in Figure 4, despite the rising inventory, TAS personnel
closed almost 50 percent more cases in FY 2009 than in FY 2005.
                               Figure 4: TAS Inventory Measures for FY 2005–FY 2009
                                                                                                            Change
                                                                                                             From
                                                                                                            FY 2005
                  Performance
                                     FY 2005            FY 2006    FY 2007   FY 2008     FY 2009              to
                    Measure
                                                                                                            FY 2009
 Case Receipts                           197,679        242,173    247,839   274,051      272,404           37.8%
 Closures                                190,153        234,630    245,467   260,439      283,841           49.3%
 Ending Inventory                         40,648         48,198     50,534    64,348       52,936           30.2%
                                                   th
 Source: TAS FY 2008 and FY 2009 4 Quarter Business Performance Reviews.

The increased volume of casework can be attributed to several external factors and trends, such
as legislative changes and the economy. For example, the number of TAS cases involving
identity theft increased from 2,486 in FY 2006 to 14,023 in FY 2009 (an increase of more than
460 percent). The National Taxpayer Advocate also attributes a rise in case receipts to increased
IRS emphasis on enforcement actions such as liens and levies. Figure 5 shows the correlation
between IRS levy actions and the receipt of cases involving levies in the TAS.
                      Figure 5: IRS Levies Against Taxpayers and Impact on TAS Cases

                   4,000,000                                                           16,000
                                                                                                            IRS
                                                                                                TAS Cases

                   3,500,000                                                           14,000
     IRS Levies




                                                                                                            Levies
                   3,000,000                                                           12,000               Issued

                   2,500,000                                                           10,000               Issue
                                                                                                            Code
                   2,000,000                                                           8,000                710-
                                                                                                            Levy
                                  2005        2006          2007     2008    2009

                                                          FY
          Source: TAS 4th Quarter Business Performance Review FY 2009.

Another factor affecting the TAS’ high inventory levels is its case acceptance policies. Most of
the cases the TAS receives are referred to it by the IRS functions, primarily through the toll-free
telephone lines; 25 however, TAS employees have indicated that many of these cases could have


24
     See Appendix VIII for trends in case receipts and TAS staffing in the Case Advocacy Program.
25
     See Appendix VII for the sources of TAS cases during FY 2009.
                                                                                                              Page 9
                        A Statistical Portrayal of the Taxpayer Advocate Service
                                   for Fiscal Years 2005 Through 2009



been resolved by the IRS function that referred the taxpayer’s request to them. In a FY 2009
survey, TAS employees identified inappropriate referrals 26 from the IRS functions as one of the
top five challenges facing the TAS.
TAS management has also acknowledged the problem. In her 2010 Annual Objectives Report to
Congress, the National Taxpayer Advocate noted, “In surprisingly many instances, the cases
TAS receives from the IRS could as easily and sometimes more easily, be resolved by the IRS
employees themselves.” 27 However, the TAS does not routinely reject referrals from the IRS,
even when they do not meet TAS case acceptance criteria, because the National Taxpayer
Advocate believes that taxpayers would be further burdened if their case is not accepted by the
TAS.
We noted in a FY 2008 report that the TAS could take additional steps to ensure that cases
referred by other IRS operating divisions meet its case criteria. 28 During our previous audit, we
identified many instances where the IRS did not provide enough details about the taxpayers’
situations to determine whether the case should have been worked by the TAS. We believe this
may have occurred because IRS managers were not required to review economic burden cases 29
before referring the taxpayer to the TAS for assistance. 30 As a result, we could not determine
whether many of the cases referred to the TAS met its criteria.
In response to our recommendation in the FY 2008 report, the TAS agreed to analyze a sample
of cases referred from other IRS functions to assess whether the IRS provided an adequate
description of the taxpayer’s problem; however, the National Taxpayer Advocate declined our
recommendation to require that IRS managers review all economic burden referrals before they
are submitted to the TAS. We still believe it may be appropriate for IRS managers to determine
whether they can immediately assist the taxpayer before referring the case to the TAS. This
could be significant since the referring function may have the authority to immediately resolve
the taxpayer’s problem.
TAS management advised us during this review that they are working on several initiatives that
should help the TAS keep pace with rising case receipts. This includes hiring additional staff
and developing technical training modules to help case advocates address complex issues in case
processing. In addition, the TAS is developing a new information system that is expected to
improve its ability to share information among TAS operations and eliminate duplicate


26
   Inappropriate referrals are deemed to be those that do not meet TAS criteria or that could have been resolved by
the IRS function that referred the case to the TAS.
27
   FY 2010 Annual Objectives Report to Congress, dated June 30, 2009.
28
   The Taxpayer Advocate Service Needs to Improve Its Processing of Economic Burden Cases (Reference Number
2008-10-088, dated April 21, 2008).
29
   Economic burden cases are broadly defined as those in which an IRS action or inaction has caused or will cause
financial difficulties or a hardship for the taxpayer.
30
   See Appendix V for more information.
                                                                                                           Page 10
                        A Statistical Portrayal of the Taxpayer Advocate Service
                                   for Fiscal Years 2005 Through 2009



information in multiple systems. 31 TAS management is scheduled to begin implementing this
new system in FY 2011.

Case processing time has steadily increased since FY 2005, causing taxpayers to
wait longer for resolution of their problems
Since FY 2005, some taxpayers have had to wait longer periods of time for the TAS to fully
address their problems. We believe this could signify a critical issue because providing timely
service is critical to the TAS’ mission. 32 In FY 2004, we performed an audit to review the TAS’
case cycle time to determine if taxpayers were receiving timely customer service. 33 Based on our
review, we estimated that 76,183 taxpayers experienced unnecessary delays averaging
16 calendar days in FY 2003 because the TAS did not always take timely actions. In response to
our recommendation in the FY 2004 report, the TAS agreed to conduct additional case reviews
to ensure taxpayer cases were processed in a timely manner.
Since FY 2005, the TAS’ average case processing time has steadily increased to more than
80 calendar days, the highest processing time reported in the last 5 fiscal years. 34 The TAS cycle
time for FY 2009 represents a 22 percent increase from FY 2005, when the average cycle time
was 66 calendar days.
During this review, we could not determine whether the increase in processing time directly
affected taxpayers; however, we continue to have concerns that taxpayers who may have already
experienced IRS delays must wait longer to receive help from the TAS. 35 Figure 6 shows
taxpayer cases are taking longer to resolve.




31
   The Taxpayer Advocate Service Integrated System will combine the TAS’ multiple information technology
applications and databases into a single interface.
32
   It is TAS policy to keep cases open until all of the taxpayer’s issues are addressed. For example, the TAS will
first address the taxpayer’s primary problem, such as processing an amended return. Next, the TAS may address
secondary issues, such as considering the taxpayer’s request for an installment agreement.
33
   The Taxpayer Advocate Service Needs to Improve Case Management to Ensure Taxpayer Problems Are Resolved
Timely (Reference Number 2004-10-166, dated September 29, 2004).
34
   In FY 2009, the average cycle time was 81 calendar days.
35
   In FY 2009, 23 percent of TAS cases involved a delay of more than 30 days to resolve a tax account problem.
                                                                                                         Page 11
                                                        A Statistical Portrayal of the Taxpayer Advocate Service
                                                                   for Fiscal Years 2005 Through 2009



                                                  Figure 6: Case Advocacy Program – Case Cycle Time

                                    90
     Calendar Days




                                                                                                 80.6
                                                                         74.6        75
                                           66.1            66.7                                               Mean – Closed Case Cycle
                                    70                                                                        Time
                                                                                                        56
                                                   44             46            51        52
                                                                                                              Median – Closed Case
                                    50
                                                                                                              Cycle Time
                                    30
                                            2005               2006       2007       2008         2009

                                                                           FY

                Source: TAS FY 2008 and FY 2009 4th Quarter Business Performance Reviews. 36

Since FY 2005, the TAS has also received increasingly greater numbers of economic burden
cases, the most critical and time-sensitive cases in the TAS inventory. Typically, the taxpayer
asks the TAS to stop an IRS enforcement action (e.g., a wage levy) or to expedite his or her
refund to prevent a potential financial hardship. Figure 7 shows the increase in economic burden
cases.
                                         Figure 7: Economic Burden Cases in the Case Advocacy Program

                                         200,000                                                 40%
                TAS Case Receipts




                                         160,000
                                                                                                 35%
                                                                                                             Economic Burden Receipts
                                         120,000
                                                                                                 30%         Other Receipts
                                          80,000                                                             % of Total
                                          40,000                                                 25%

                                              0                                                  20%
                                                        2005      2006   2007 2008        2009
                                                                             FY
          Source: TAS 2009 Annual Report to Congress.

Although the TAS gives these taxpayers priority treatment, it is taking longer to process
economic burden cases. As shown in Figure 8, in FY 2009, the average case processing time for
economic burden cases was approximately 65 calendar days, an increase since FY 2005 of more
than 19 calendar days (approximately 43 percent).


36
  Days are calendar days, median is the midpoint number in the range of all numbers ascending from lowest to
highest, and the mean is the average of all the numbers.
                                                                                                                                Page 12
                                A Statistical Portrayal of the Taxpayer Advocate Service
                                           for Fiscal Years 2005 Through 2009



                                  Figure 8: Economic Burden Case Cycle Time

                         70                                          61.2            64.5
                                                        58.0
         Calendar Days




                                              49.5
                         50   45.2

                         30

                         10
                              2005           2006       2007         2008            2009
                                                        FY

         Source: Data provided by TAS management, February 2010.

We are also concerned that the volume of casework will continue to affect the ability of case
advocates to take timely actions on taxpayer cases. This concern was raised earlier by officials
from the Government Accountability Office in a 1999 testimony before a Congressional
oversight committee. 37 They noted that an increase in the number of cases could negatively
affect the timeliness and quality of casework and could make it necessary for the National
Taxpayer Advocate to reevaluate which cases to address with their limited resources.

The Case Advocacy Program has not met its goals for timeliness
Since timeliness is one of the key attributes of quality customer service, it is important to ensure
that taxpayer issues reaching the stage of a TAS case are resolved as expeditiously as possible.
Annually, the TAS establishes goals and measures for timeliness of case actions. They are:
     •             Timeliness of the initial contact.
     •             Timeliness of initial actions.
     •             Timeliness of subsequent actions.
In FY 2009, the TAS scored high marks (more than 95 percent) for 2 of its timeliness goals:
making timely initial contacts with taxpayers and taking initial actions; however, it did not meet
its target for timeliness of subsequent actions. 38
TAS management does not set specific case processing time goals since their objective is to take
whatever time necessary to fully resolve the case issues. They do, however, require managerial
reviews of cases at specific intervals (such as every 100 calendar days) to help ensure case
advocates take timely actions on taxpayer’s accounts. Nonetheless, in a prior audit, we found

37
   Testimony before the Subcommittee on Oversight, Committee on Ways and Means, House of Representatives,
February 10, 1999.
38
   See Appendix IX for all TAS 2009 quality standards.
                                                                                                   Page 13
                        A Statistical Portrayal of the Taxpayer Advocate Service
                                   for Fiscal Years 2005 Through 2009



that managerial reviews were not always effective for this purpose. During that review, we
found delays continued even after management had reviewed some of the cases in our sample. 39

The Systemic Advocacy Program Received Fewer New Submissions
and Opened Fewer Projects
The Systemic Advocacy Program plays an important role in identifying issues that can burden
large groups of taxpayers. Issues received in the Systemic Advocacy Program come from many
sources, including TAS and other IRS employees, tax practitioners, and the general public.
Once the TAS selects an issue for its Systemic Advocacy Program, the issue is identified as
either an Immediate Intervention 40 or an Advocacy Project. 41 Immediate intervention projects
are considered to be more time sensitive and may require urgent attention. For example, an
Immediate Intervention project would be warranted if an IRS computer programming error
caused a delay in the issuance of refunds to thousands of taxpayers.
Since FY 2006, the Systemic Advocacy Program has received fewer total submissions. During
FYs 2006 and 2007, the Systemic Advocacy Program received more than 1,100 suggestions for
Systemic Advocacy Program projects, respectively; however, in FY 2009, the program received
only 860 submissions, a 30 percent decrease in new issues received from FY 2007. In FY 2009,
the Systemic Advocacy Program opened 135 new projects, (the lowest number in the past
5 fiscal years), closed 128 projects, and had 123 projects in ending inventory.
TAS management attributes the drop in new receipts to better screening and enhancements made
to its database, the Systemic Advocacy Management System. We did not evaluate the reasons
for the declining submissions during this review. Figure 9 shows total receipts in the Systemic
Advocacy Program, Figure 10 shows closures, and Figure 11 shows ending inventory.




39
   The Taxpayer Advocate Service Needs to Improve Case Management to Ensure Taxpayer Problems Are Resolved
Timely (Reference Number 2004-10-166, dated September 29, 2004).
40
   An immediate intervention is an operational issue, identified internally or externally, which causes immediate,
significant harm to multiple taxpayers and demands an urgent response.
41
   The TAS creates Advocacy projects from an advocacy issue that has been reviewed, ranked under established
criteria, and accepted as a project for assignment and further development.
                                                                                                         Page 14
                        A Statistical Portrayal of the Taxpayer Advocate Service
                                   for Fiscal Years 2005 Through 2009



             Figure 9: Project Receipts in the Systemic Advocacy Program

                       Fiscal Year                             2005        2006       2007          2008        2009

Suggestions Received 42                                            635     1,144      1,224          964         860

Advocacy Projects Opened                                           156         126     164           111         116

Immediate Interventions Opened                                      19          55      68            36          19

Total Projects Opened                                              175         181     232           147         135

Percent of Projects Opened on Suggestions Received           27.6%        15.8%      19.0%         15.2%    15.7%
Source: TAS 2005, 2006, 2007, 2008 Annual Reports to Congress; TAS FY 2008 and 2009 4th Quarter Business
Performance Reviews; and data provided by TAS management, March 2010.

            Figure 10: Project Closures in the Systemic Advocacy Program

            Fiscal Year                      2005           2006           2007          2008              2009

Advocacy Projects Closed                    Unknown          203               159        166               103

Immediate Interventions Closed              Unknown          35                 62            48            25

Total Projects Closed                         333            238               221        214               128
Source: TAS 2006, 2007, and 2008 Annual Reports to Congress and data provided by TAS management,
March 2010.

           Figure 11: Ending Inventory in the Systemic Advocacy Program

         Fiscal Year                  2005            2006               2007          2008                2009

Advocacy Projects                    Unknown        Unknown              157            127                115

Immediate Interventions              Unknown        Unknown               26             13                 8

Total Projects                         229            170                183            140                123
                                       th
Source: TAS FY 2007, 2008, and 2009 4 Quarter Business Performance Reviews and data provided by TAS
management, March 2010.




42
  Although anyone can submit an issue for the Systemic Advocacy Program to consider, not all submissions result
in Systemic Advocacy Program projects.
                                                                                                            Page 15
                      A Statistical Portrayal of the Taxpayer Advocate Service
                                 for Fiscal Years 2005 Through 2009



The Systemic Advocacy Program has not met its timeliness goals for project
actions
In a prior audit conducted during FY 2003, we found that Systemic Advocacy Program projects
were frequently not completed timely and there were long periods of time without any project
activity. 43 Further, we identified the temporary assignments of TAS personnel to work on the
Annual Report to Congress were a competing priority with Systemic Advocacy Program
projects. We were concerned that delays in completing Systemic Advocacy Program projects
could adversely affect substantial numbers of taxpayers; therefore, we recommended that the
TAS establish timeliness and staff resource standards for conducting Systemic Advocacy
Program projects. Beginning in FY 2007, the TAS implemented quality standards for the
Systemic Advocacy Program, which includes guidelines for timeliness.
In FY 2009, the TAS did not meet the timeliness goals set for Advocacy Projects or Immediate
Interventions. 44 During a discussion with TAS management in March 2010, they indicated this
was due in part to the temporary assignment of analysts to higher priority work, including
preparation of the Annual Report to Congress. Management also indicated they were not fully
staffed, but the recent hiring of five new systemic field analysts would help them attain higher
levels of timeliness. We did not evaluate the reasons for untimely actions on projects, but we
may review this issue in a future audit.

The Taxpayer Advocate Service Continues to Report High Levels of
Casework Quality and Customer Satisfaction
Since FY 2005, the TAS has reported high scores for the quality of work done in its Case
Advocacy Program. Despite rising case receipts, fluctuating staffing levels, and decreased
authority, TAS case quality and customer satisfaction measures remain high. In FY 2009, the
TAS reported an overall quality rating of 88 percent, which was only slightly less than the
highest rating of 92 percent reported in FY 2005. During this review, we did not evaluate the
TAS’ quality review process and we relied upon the data provided by TAS officials.
In a FY 2008 review of TAS casework, we expressed concerns to TAS management about the
overall accuracy of their quality measures. 45 Although 56 percent of the cases we reviewed had
errors that affected taxpayers or Government revenue, the TAS reported an overall quality rating
of 90 percent for the same period (FY 2006). We attempted to reconcile the difference by
reviewing the TAS’ sampling methodology used to select cases for its quality review process.
However, the TAS did not identify which, if any, of the cases in our sample were selected as part

43
   The National Taxpayer Advocate Could Enhance the Management of Systemic Advocacy Resources (Reference
Number 2003-10-187, dated September 30, 2003).
44
   See Appendix IX for the TAS FY 2009 quality measures which includes timeliness.
45
   The Taxpayer Advocate Service Needs to Improve Its Processing of Economic Burden Cases (Reference
Number 2008-10-088, dated April 21, 2008).
                                                                                                  Page 16
                                        A Statistical Portrayal of the Taxpayer Advocate Service
                                                   for Fiscal Years 2005 Through 2009



of its quality review process. As a result, we were unable to determine the reasons for the
difference within the scope of the audit. The TAS has subsequently drafted new quality
measures and it plans to begin implementation in FY 2010.

Most Case Advocacy Program quality scores remain high
To help TAS management assess how well its Case Advocacy Program is performing, the TAS
developed an overall quality measure. The TAS’ overall quality measure consists of 8 quality
standards weighted from 5 to 25 points. 46 Although the TAS was close to meeting most of its
internally established quality goals during FY 2009, it met only one 47 of its eight goals as shown
in Figure 12.
                                Figure 12: FY 2009 Case Quality – Case Advocacy Program
                        100
     Accuracy Level




                         90
                         80
                         70                                                                     FY 2009
                         60                                                                     FY 2009 Target
                         50
                                 1       2        3        4       5        6       7       8
                                                      Quality Standard
                      Source: TAS FY 2009 Performance Measures and Target Results Report.

Standard number 3 (Timeliness of Subsequent Actions) is the percent of all cases with timely
subsequent case actions. This standard dropped from 87 percent in FY 2005 to 70 percent in
FY 2009 and assesses whether the TAS takes all subsequent actions timely (including required
taxpayer contacts). Figure 13 compares the overall quality rating to the timeliness standard
number 3.




46
  See Appendix IX for more information.
47
  The goal was met for quality review standard number 8, which allows 5 points for “educating” the taxpayer
regarding any of his/her actions that contributed to the problem.
                                                                                                          Page 17
                                  A Statistical Portrayal of the Taxpayer Advocate Service
                                             for Fiscal Years 2005 Through 2009



                               Figure 13: Case Advocacy Overall Quality Rating
                            and Comparison With Timeliness of Subsequent Actions
 Quality Rating




                   95
                                                                                          Total Quality
                   85                                                                     Rating
                   75
                                                                                          Timeliness of
                   65                                                                     Subsequent
                                                                                          Actions
                          2004      2005      2006        2007   2008      2009
                                                     FY
 Source: TAS FY 2009 Performance Measures and Target Results Report.

Most quality measures for the Systemic Advocacy Program continue to improve
In FY 2007, the TAS established quality measures and began conducting quality reviews of its
closed Advocacy Projects and Immediate Interventions. The TAS uses three general standards to
measure overall quality: Accuracy, Timeliness, and Quality of Communications. Figure 14
shows that although most scores have improved since FY 2007, the TAS has consistently low
scores for taking timely actions.
                            Figure 14: Systemic Advocacy Program Quality Ratings

                                                                                                  FY
                                                                         FY        FY     FY
                                   Quality Measure                                               2009
                                                                        2007      2008   2009
                                                                                                Target
                                  Accuracy of Closed Projects           75.8      87.8   91.5     90.7
                   Advocacy
                   Projects       Timeliness of Actions                 37.2      49.0   61.0     64.1

                                  Quality of Communications             83.2      84.4   90.8     86.8

                                  Accuracy of Closed Projects           79.9      82.4   90.1     87.5
                   Immediate
                  Interventions   Timeliness of Actions                 51.8      47.4   53.8     70.0

                                  Quality of Communications             85.0      76.0   75.3     82.5
      Source: TAS FY 2009 Performance Measures and Target Results Report.




                                                                                                   Page 18
                                 A Statistical Portrayal of the Taxpayer Advocate Service
                                            for Fiscal Years 2005 Through 2009



Customer satisfaction scores are generally positive for the Case Advocacy
Program
The TAS contracted with an outside vendor to conduct quarterly surveys to assess whether
taxpayers are satisfied with the service provided by the Case Advocacy Program. Although all
results from the individual survey questions are not published, TAS management reports three
broad categories of results:
       •        Percentage of taxpayers satisfied with the service provided by the TAS.
       •        Percentage of taxpayers dissatisfied with the service provided by the TAS.
       •        Percentage of taxpayers who indicate the TAS employee did their best to solve their
                problem. 48
While overall satisfaction remains high, the FY 2009 targets were not met. 49 In FY 2009, more
than 15,000 taxpayers responded to these surveys (approximately 5 percent of the taxpayer cases
closed in FY 2009). The results showed that 84 percent of the taxpayers surveyed were satisfied
with the service provided by the TAS, while 12 percent were dissatisfied. The FY 2009 goals for
customers satisfied and dissatisfied were 86 percent and 11 percent, respectively. In addition,
86 percent of taxpayers responded that the TAS employee did their best to solve their problem.
In light of other trends (e.g., increased case receipts, case processing time, etc.), the relatively
constant level of customer satisfaction is noteworthy.
                           Figure 15: Case Advocacy Program Customer Satisfaction



                           100    86         85                  85        84
                                                       83
           Percentage of




                            80
            Customers




                            60
                            40                                                       Customers Satisfied
                            20          13        12        13        12        12   Customers Dissatisfied
                             0
                                 2005    2006      2007      2008      2009
                                                   FY

     Source: TAS FY 2009 Performance Measures and Target Results Report.


48
     The TAS began reporting this standard in FY 2007.
49
     See Appendix X for more information on Customer Satisfaction Survey Results.
                                                                                                     Page 19
                    A Statistical Portrayal of the Taxpayer Advocate Service
                               for Fiscal Years 2005 Through 2009



In FY 2008, TAS management began identifying the TAS offices with the lowest and highest
customer satisfaction scores. They have engaged a contractor to work with employees in these
offices to identify performance variables and best practices to help offices improve scores.

Some customers felt the Systemic Advocacy Program could have been more
responsive
In FY 2007, management in the Systemic Advocacy Program initiated a survey to assess whether
TAS employees who submitted issues were satisfied with the process. In FY 2008, the TAS
expanded the survey to include submitters in other IRS business units. We reviewed the survey
results for FY 2007 and FY 2008 and found that some persons who made suggestions appeared
dissatisfied with the communication from Systemic Advocacy Program personnel.
For FY 2007, the response rate was 42 percent and, of those, 37 percent were not satisfied with
the communication and/or interactions they had with Systemic Advocacy Program personnel.
Further, just 31 percent of the respondents were satisfied with the overall outcome of the issue
they submitted.
For FY 2008, the overall response rate dropped to 34 percent. However, the number of
respondents who were not satisfied with the communications/interactions with Systemic
Advocacy Program personnel dropped to 27 percent. The TAS did not specifically ask if
respondents were satisfied with the overall outcome, although 86 percent of those surveyed
indicated they would use the system again. TAS management indicated in FY 2009 they plan to
become more interactive with persons that submit issues to the Systemic Advocacy Program and
will share the final outcome of projects with them.




                                                                                          Page 20
                           A Statistical Portrayal of the Taxpayer Advocate Service
                                      for Fiscal Years 2005 Through 2009



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide a statistical portrayal with trend analyses of
the TAS for FYs 2005 through 2009. To accomplish this objective, we:
I.         Determined the statutory mission of the TAS and identified each of the programs
           currently assigned to the TAS.
II.        Reviewed published data relating to the TAS’ activities for FYs 2005 through 2009. 1
III        Identified the resources (i.e., FTEs and budget) devoted to the TAS and determined how
           the resources are employed within the programs the TAS administers.
IV.        Reviewed and analyzed statistical data for trends in the Case Advocacy Program.
V.         Reviewed and analyzed statistical data for trends in the Systemic Advocacy Program.
VI.        Reviewed Treasury Inspector General for Tax Administration and Government
           Accountability Office reports issued in FYs 2005 through 2009 to compile relevant
           information that provides additional perspective of explanations for identified trends.
VII.       Discussed relevant issues with management to confirm the results of our review.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not assess internal
controls because doing so was not applicable within the context of our audit objective.




1
    We did not independently verify the results reported in published data.
                                                                                              Page 21
                  A Statistical Portrayal of the Taxpayer Advocate Service
                             for Fiscal Years 2005 Through 2009



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Janice M. Pryor, Audit Manager
Mary F. Herberger, Lead Auditor
Joseph P. Smith, Senior Auditor
Kanika Kals, Auditor




                                                                                  Page 22
                  A Statistical Portrayal of the Taxpayer Advocate Service
                             for Fiscal Years 2005 Through 2009



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy National Taxpayer Advocate TA
Executive Director, Case Advocacy TA:EDCA
Executive Director, Systemic Advocacy Systems TA:EDSA
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: National Taxpayer Advocate TA




                                                                        Page 23
                        A Statistical Portrayal of the Taxpayer Advocate Service
                                   for Fiscal Years 2005 Through 2009



                                                                                                Appendix IV

                          Historical Perspective of the
                          Taxpayer Advocate Service

The TAS has undergone significant changes since it evolved from the Problem Resolution
Program, which was founded by the IRS in 1976. At that time, taxpayer issues were worked
under the Problem Resolution Program by IRS employees reporting directly to IRS District
Directors, who oversaw all IRS field offices.
The Office of the Taxpayer Ombudsman was created by the IRS in 1979 to serve as the primary
advocate for taxpayers. This position was codified in the Omnibus Taxpayer Bill of Rights in
1988. 1 The law also provided the Ombudsman authority to issue Taxpayer Assistance Orders.
Taxpayer Assistance Orders allowed the Ombudsman to direct the IRS to take or cease an action
when taxpayers were suffering or about to suffer significant hardships because of the way the
Internal Revenue laws were being administered. For example, the Ombudsman could issue a
Taxpayer Assistance Order to the Collection function to release a wage levy if the taxpayer was
unable to pay for necessary living expenses.
In 1996, the Taxpayer Bill of Rights 2 replaced the Office of the Taxpayer Ombudsman with the
Office of the Taxpayer Advocate.2 According to the National Taxpayer Advocate, this was in
response to a perceived need to strengthen the voice and authority of the position and expanded
the scope of some authorities granted to the Ombudsman. In addition, it also established the
requirement for this office to issue two annual reports directly to Congress. It did not, however,
provide the Taxpayer Advocate with direct line authority over the regional and local personnel
who handled taxpayer cases.
In response to concerns about the quality of service provided to taxpayers, Congress passed the
IRS RRA 98, 3 which created the position of the National Taxpayer Advocate and established the
TAS as an independent organization within the IRS. To ensure the National Taxpayer
Advocate’s independence, the RRA 98 provided for the National Taxpayer Advocate to be
appointed by the Secretary of the Treasury instead of the IRS Commissioner. Further, the RRA
98 provided for increased independence of the Taxpayer Advocate’s office, requiring direct
management control of the office’s staff by the National Taxpayer Advocate.



1
  Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in scattered sections of 5 U.S.C. and 26 U.S.C.).
2
  Pub. L. No. 104-168, 110 Stat. 1452 (1996) (codified as amended in scattered sections of 26 U.S.C.).
3
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                          Page 24
                         A Statistical Portrayal of the Taxpayer Advocate Service
                                    for Fiscal Years 2005 Through 2009



                                                                                                  Appendix V

                          Criteria – Case Advocacy Program

The following chart details the TAS criteria for accepting cases into its Case Advocacy
Program. 1

       Economic              1    A taxpayer is experiencing economic harm or is about to suffer economic
     Burden Criteria              harm.

                             2    A taxpayer is facing an immediate threat of adverse action.

                             3    A taxpayer will incur significant costs if relief is not granted (including fees
                                  for professional representation).

                             4    A taxpayer will suffer irreparable injury or long-term adverse impact if
                                  relief is not granted.

     Systemic Burden         5    A taxpayer has had a delay of more than 30 calendar days (after normal
         Criteria                 processing) to resolve a tax account problem.

                             6    A taxpayer has not received a response/resolution to his/her
                                  problem/inquiry by the date promised.

                             7    A system(s) or procedure(s) has either failed to operate as intended or failed
                                  to resolve the taxpayer’s problem or dispute within the IRS.

      Best Interest of            The manner in which the tax laws are being administered raise
                             8    considerations of equity, or have impaired or will impair the taxpayer’s
       the Taxpayer
                                  rights.

       Public Policy         9    The National Taxpayer Advocate determines compelling public policy
                                  warrants assistance to an individual or group of taxpayers.
    Source: Internal Revenue Manual Part 13, dated July 23, 2007.




1
  The TAS has identified specific criteria that qualify certain taxpayers for TAS assistance. The criteria under which
the TAS accepts a case do not govern whether a taxpayer is entitled to relief they have requested. Situations
meeting the criteria above should be referred to the TAS for special handling.
                                                                                                            Page 25
                       A Statistical Portrayal of the Taxpayer Advocate Service
                                  for Fiscal Years 2005 Through 2009



                                                                                              Appendix VI

                       Expenditures and Staffing for
                      Fiscal Years 2005 Through 2009

The following figures show expenditures made by the TAS and staffing levels during the period
FYs 2005 through 2009.
                   Figure 1: Expenditures for FY 2005–FY 2009 (in millions)

                   Program Area               FY 2005 FY 2006 FY 2007 FY 2008 FY 2009
        Case Advocacy                            $142.7      $146.0      $150.5     $162.8      $174.7
                             1
        Systemic Advocacy                          $3.7        $4.0        $3.2        $4.0       $4.3
                                       2
        Low Income Taxpayer Clinic                 $9.2        $9.4        $9.6      $10.7       $11.4
        Taxpayer Advocacy Panel                    $2.5        $2.5        $2.7        $2.7       $3.2
        Other 3                                    $9.1        $8.5        $8.1      $10.1       $11.2
        Total 4                                 $167.3       $170.3      $174.0     $190.3      $204.8
        Source: Data provided by TAS management, December 2009.

                                 Figure 2: FTEs for FYs 2005–2009

                  Program Area             FY 2005        FY 2006     FY 2007     FY 2008      FY 2009
      Case Advocacy                           1,829         1,766       1,757         1,785       1,851
      Systemic Advocacy1                          32           32          25            29           29
      Low Income Taxpayer Clinic2                 10           11          13            12           14
      Taxpayer Advocacy Panel                     21           21          20            18           24
              3
      Other                                       71           64          56            74           79
      Total4                                  1,963         1,894       1,870         1,918       1,998
        Source: Data provided by TAS management, December 2009.


1
  Some staff help prepare the Annual Report to Congress.
2
  The responsibility for the Low Income Taxpayer Clinic Grant Program was transferred to the TAS in May 2003;
however, dollars and Full-Time Equivalents were not allocated to the TAS until FY 2004.
3
  Other includes training, travel, and support for TAS Headquarters management activities.
4
  The totals do not add up due to rounding.
                                                                                                      Page 26
                        A Statistical Portrayal of the Taxpayer Advocate Service
                                   for Fiscal Years 2005 Through 2009



                                                                                                Appendix VII

                      Sources of Cases Received During
                              Fiscal Year 2009

              TAS Cases Received From IRS Operating Divisions
                  IRS Referrals                                                   42.2%
                  NTA Toll-Free Telephone Line                                    28.3%
                  Taxpayer Requests                                                2.5%
                  IRS – Congressional Referral                                     0.2%
                  Total Case Receipts From the IRS                                73.2%
              Cases Received Through Direct Contact With the TAS
                  Form 911 / Correspondence                                       14.3%
                  Congressional Inquiry                                            6.2%
                  Telephone Call                                                   4.2%
                  Walk-In                                                          1.4%
                  ASKTAS1 Toll-Free Telephone Line                                 0.7%
                  Total Direct TAS Contacts                                       26.8%
              Total                                                               100%
                            th
             Source: TAS 4 Quarter FY 2009 Business Performance Review.
             Notes:
             NTA = National Taxpayer Advocate.
             Taxpayers and IRS employees use Request for Taxpayer Advocate Service Assistance
             (And Application for Taxpayer Assistance Order (Form 911)) to submit issues to the TAS.
             The NTA Toll-Free Line (1-877-777-4778) is staffed by IRS employees in the Wage and
             Investment Division. ASKTAS1 Toll-Free Telephone Line (1-877-275-8271) calls are
             routed to TAS intake advocates. 1




1
  Intake advocates answer incoming telephone calls and customer inquiries. This includes, but is not limited to:
internal, taxpayer, congressional, and stakeholder contacts.
                                                                                                           Page 27
                              A Statistical Portrayal of the Taxpayer Advocate Service
                                         for Fiscal Years 2005 Through 2009



                                                                                  Appendix VIII

                              Case Advocacy Program
                      Full-Time Equivalents and Case Receipts
                        for Fiscal Years 2005 Through 2009

As shown in Figure 1, the number of new case receipts has steadily increased in the Case
Advocacy Program. In addition, since FY 2005, staffing has fluctuated and was at its lowest
level during FY 2007.


                            Figure 1: Case Receipts and Full-Time Equivalents

                  300,000                                          1,860

                                                                   1,840
                  250,000
                                                                   1,820
  Case Receipts




                  200,000
                                                                   1,800
                                                                           FTEs

                  150,000                                          1,780           Case Receipts

                                                                   1,760
                  100,000
                                                                                   FTEs
                                                                   1,740
                   50,000
                                                                   1,720

                       0                                           1,700
                            2005   2006   2007    2008      2009

                                           FY

 Source: TAS management and Business Performance Reviews.




                                                                                            Page 28
                     A Statistical Portrayal of the Taxpayer Advocate Service
                                for Fiscal Years 2005 Through 2009



                                                                                            Appendix IX

                  Casework Quality Index Standards

      STANDARD                             OVERVIEW                                 APPLICATION

#1 – Did the TAS make        The TAS must make contact with the          For all cases.
timely contact with the      taxpayer or representative (preferably by
taxpayer?                    telephone) within the specified time period
(5 points)                   indicated in Internal Revenue Manual Part
                             13. This standard applies to timeliness of
                             the contact only, not content.


#2 – Did the TAS take        The TAS must make substantive initial         For all cases.
initial action/request       actions to resolve the taxpayer’s case with
information within the       no unnecessary delays. This standard
specified time period?       ensures that case actions are started
(10 points)                  promptly. This standard measures
                             timeliness only.


#3 – Did the TAS take all    It is essential that the TAS take actions     For most cases.
subsequent actions timely    expeditiously to resolve the taxpayer’s
                                                                           Exception: Cases resolved on the
from the time action could   case with no unnecessary delays. To
                                                                           same day as the initial action.
have been taken?             ensure timely actions, the TAS must meet
(10 points)                  internal followup dates for subsequent
                             actions and meet next contact dates
                             communicated to customers.
                             This standard measures whether the TAS
                             takes all subsequent actions (internal
                             followups and next contacts with
                             customers) timely.




                                                                                                 Page 29
                    A Statistical Portrayal of the Taxpayer Advocate Service
                               for Fiscal Years 2005 Through 2009




     STANDARD                            OVERVIEW                                APPLICATION

#4 – Did the TAS resolve   TAS cases will not be closed until the TAS For all cases (including cases closed
all taxpayer issues?       has taken all actions necessary to resolve   due to nonresponse by the taxpayer
(25 points)                the taxpayer’s issue(s) and all transactions or representative).
                           have posted. If the TAS does not properly
                           resolve the taxpayer’s issue(s), the
                           taxpayer will not be satisfied and will need
                           to contact the IRS or the TAS again.


#5 – Did the TAS address   A related issue is a tax issue, other than the For cases with related issues.
all related issues?        primary core issue, that arose or was
                                                                          A related issue could involve the
(10 points)                identified during the course of working the
                                                                          TAS customer or another taxpayer
                           case.
                                                                          who has been affected by TAS
                           Related issues can be identified by the        actions on behalf of the TAS
                           TAS, the IRS, or even the taxpayer. Once customer.
                           identified, the TAS has the responsibility
                           to address the issue with the taxpayer and
                           provide guidance on resolution of the
                           related issue or provide options to the
                           taxpayer.




                                                                                               Page 30
                         A Statistical Portrayal of the Taxpayer Advocate Service
                                    for Fiscal Years 2005 Through 2009




       STANDARD                                  OVERVIEW                                     APPLICATION

#6 – Were all actions taken      This standard ensures that all actions made        For all cases where an adjustment
by the TAS and the IRS           by the TAS and/or IRS operations are               was input and/or an action was
operations/functional            technically and procedurally correct. The          required.
divisions technically and        term “technically correct” refers to the
                                                                                    Exception: If a case is closed as a
procedurally correct?            mechanics of adjustments, while
                                                                                    “no response” case, and there have
(15 Points)                      “procedurally correct” refers to working
                                                                                    been no verbal contacts with the
                                 the case in accordance with the law,
                                                                                    taxpayer for authentication
                                 Internal Revenue Manual, and IRS
                                                                                    purposes, no adjustment actions
                                 procedural handbooks.
                                                                                    taken, and no collection holds
                                 This standard also measures the following          requested, Standard #6 would be
                                 issues:                                            rated as “not applicable.”
                                      •   Disclosure                                Note:
                                                                                    (1) The term “adjustment” refers to
                                      •   Delegation of Authority                       any action taken which will
                                      •   Suspending Notices and                        change the taxpayer’s account on
                                          Collection Activity                           any Master File 1 (e.g., tax
                                                                                        adjustments, penalty
                                                                                        adjustments, credit transfers,
                                                                                        freeze code input/release, entity
                                                                                        changes, etc.). “Any Master
                                                                                        File” includes Individual Master
                                                                                        File, 2 Business Master File, 3
                                                                                        Non-Master File, 4 Individual
                                                                                        Retirement Account File, 5 etc.
                                                                                    (2) The TAS is responsible for
                                                                                        ensuring that adjustments made
                                                                                        by other IRS functions as a result
                                                                                        of an OAR are done correctly
                                                                                        and post properly.
                                                                                    (3) The term “action” refers to any
                                                                                        action.


1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  The IRS database that maintains transactions or records of individual tax accounts.
3
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
4
  Consists of transactions on tax accounts not included on the Master File.
5
  An individual retirement account is a trust or custodial account set up in the United States for the exclusive benefit
of an individual or an individual’s beneficiaries.
                                                                                                               Page 31
                       A Statistical Portrayal of the Taxpayer Advocate Service
                                  for Fiscal Years 2005 Through 2009




      STANDARD                              OVERVIEW                                 APPLICATION

#7 – Did the TAS give the     Customer surveys indicate taxpayers           For all cases.
taxpayer a clear, complete,   expect at case closing clear, complete, and
                                                                            Exception: Cases closed due to
and correct explanation at    correct explanations of the resolutions of
                                                                            nonresponse by the taxpayer.
closing?                      their problems.
(20 points)
                              This means case histories must include
                              documented evidence that the TAS
                              informed the taxpayer/representative at
                              closing of the final resolution of his/her
                              complaint (including appeal rights when
                              applicable). By addressing all issues as
                              identified by the taxpayer and/or the TAS,
                              the TAS ensures resolution of all taxpayer
                              issues at the point of first contact.

#8 – Did the TAS educate      It is necessary to educate the taxpayer to    For all cases where it is clearly
the taxpayer regarding any    ensure his/her compliance with tax laws       evident the taxpayer’s actions or
of his/her actions that       and to prevent recurrence of the same         lack of actions contributed to his/her
contributed to the problem?   issue(s)/problem(s) in the future.            situation.
(5 points)


Source: TAS web site, January 4, 2010.

Note: These eight standards are used by the TAS to review random samples of regular and
reopen criteria codes 1–9 cases each month. Some standards are not always applicable in all
cases.




                                                                                                    Page 32
                      A Statistical Portrayal of the Taxpayer Advocate Service
                                 for Fiscal Years 2005 Through 2009



                                                                                     Appendix X

                 Customer Satisfaction Survey Results

                                                                                        FY
  Measure/                                                    FY   FY   FY   FY   FY   2009
  Indicator            Description             Source        2005 2006 2007 2008 2009 Target

   Customers     Percentage of taxpayers       Customer
    Satisfied    who are very satisfied or    Satisfaction
                 somewhat satisfied with        Survey
                 the service provided by      (Quarterly)    86       85   83   85    84     86
                 the TAS (Question 12 on
                 the Customer Satisfaction
                 Survey).

  Customers      Percentage of taxpayers       Customer
  Dissatisfied   who are somewhat             Satisfaction
                 dissatisfied or very           Survey
                 dissatisfied with the        (Quarterly)
                                                             13       12   13   12    12     11
                 service provided by the
                 TAS (Question 12).

    Solved       Percentage of taxpayers       Customer
   Taxpayer      who indicate the TAS         Satisfaction
   Problem       employee did their best to     Survey        --      --   85   87    86     88
                 solve their problems.        Question 7B
                                              (Quarterly)
Source: TAS FY 2009 Performance Measures and Target Results Report.




                                                                                           Page 33
      A Statistical Portrayal of the Taxpayer Advocate Service
                 for Fiscal Years 2005 Through 2009



                                                     Appendix XI

Management’s Response to the Draft Report




                                                            Page 34
A Statistical Portrayal of the Taxpayer Advocate Service
           for Fiscal Years 2005 Through 2009




                                                      Page 35
A Statistical Portrayal of the Taxpayer Advocate Service
           for Fiscal Years 2005 Through 2009




                                                      Page 36
A Statistical Portrayal of the Taxpayer Advocate Service
           for Fiscal Years 2005 Through 2009




                                                      Page 37
